CERTIFICATE OF SERVICE
I hereby certify that 1 copy of the foregoing Petition for Writ of Certiorari in Sheriff
Dale Malone, et al. v. Ronald Graves, was sent via U.S. Mail to the U.S. Supreme
Court, and via e-mail service to the following parties listed below, this 19th day of
October, 2020:
Robert W. Palmer
Beth M. Rivers
Robin Beth Wagner
Pitt, McGehee, Palmer & Rivers
117 W. Fourth Street
Suite 200
Royal Oak, MI 48067
(248) 398-9800
rpalmer@pittlawpc.com
brivers@pittlawpc.com
rwagner@@pittlawpc.com
Counsel for Respondent
All parties required to be served have been served.
I further declare under penalty of perjury that the foregoing is true and correct.
This Certificate is executed on October 19, 2020.
/S/MARCELYN STEPANSKI
MARCELYN A. STEPANSKI
Counsel of Record
ROSATI, SCHULTZ, JOPICH &
AMTSBUECHLER
27555 Executive Drive
Suite 250
Farmington Hills, MI 48331
(248) 489-4100
mstepanski@rsjalaw.com
Counsel for Petitioners

